                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A13030036                                                                    Page 1 of 1




                                                                                    1                      2
                 We received an allegation of plagiarism in a funded NSF proposal. We contacted the PI
         about the allegation. He acknowledged responsibility for a minimal amount of the copied text
         and apologized for his "errors of judgment." Regarding the other copied text, he said he helped
         author the material we identified from two sources and said a student was responsible for
         inclusion of material from another source.

                 We reviewed another proposal3 the PI submitted and identified no copied text. We did not
         identify a pattern of plagiarism.

                Based on the PI's response and our additional review, we determined the copied material
         for which the PI was responsible did not rise to the level of research misconduct.

                   Accordingly, this case is closed with no further action taken.




NSF OIG Form 2 (11/02)
